r

4*

No. 20-1321

IN THE SUPREME COURT OF THE UNITED STATES

JOHN CHING EN LEE
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

CERTIFICATE OF SERVICE
I, John Ching En Lee, do swear or declare, under penalty of perjury, that on
this date, May 3, 2021, as required by Supreme Court Rule 29,1 have served the
enclosed Petition for a Writ of Certiorari (Petition for Rehearing) on each party to
the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above document in the United
States mail properly addressed to each of them and with Priority Mail postage
prepaid. The names and addresses of those served are as follows:
Elizabeth Prelogar
Acting Solicitor General of The United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington D.C. 20530-0001

6

